                                                                  Issue Date
                                                                           March 30, 2012
                                                                   
                                                                  Audit Report Number
                                                                           2012-CH-1007




TO:         Keith E. Hernandez, Director of Community Planning and Development, 5FD


FROM:       Kelly Anderson, Regional Inspector General for Audit, 5AGA

SUBJECT: The State of Michigan Lacked Adequate Controls Over Its Use of Neighborhood
           Stabilization Program Funds Under the Housing and Economic Recovery Act
           of 2008 for a Project

                                    HIGHLIGHTS

 What We Audited and Why

             We audited the State of Michigan’s Neighborhood Stabilization Program
             administered by the Michigan State Housing Development Authority. The audit
             was part of the activities in our fiscal year 2011 annual audit plan. We selected
             the State based upon our designation of the Program as high risk and citizens’
             complaints to our office. Our objective was to determine whether the State
             complied with Federal requirements in its use of Program funds under the
             Housing and Economic Recovery Act of 2008 regarding the citizens’ complaints
             to our office.

 What We Found

             The State lacked sufficient documentation to support that it followed Federal
             requirements in its use of $3.3 million in Program funds for a project. As a result,
             the U.S. Department of Housing and Urban Development (HUD) lacked
             assurance that the Authority’s use of $3.3 million in Program funds for the
             acquisition of a building was reasonable and met Federal requirements.
What We Recommend

           We recommend that the Director of HUD’s Detroit Office of Community
           Planning and Development require the State to (1) provide sufficient
           documentation to support that the Authority’s use of $3.3 million in Program
           funds for the purchase of the building was reasonable or reimburse its Program
           from non-Federal funds as appropriate and (2) implement adequate procedures
           and controls to ensure that it maintains sufficient documentation to support that
           the Authority’s use of Program funds is for eligible project costs.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response

           We provided our discussion draft audit report to the executive director of the
           Authority, the attorney of the Authority’s Executive Division, the chairman of the
           Authority’s board, and HUD’s staff during the audit. We held an exit conference
           with the Authority’s attorney on February 29, 2012. We asked the attorney to
           provide comments on our discussion draft audit report by March 2, 2012. The
           attorney provided written comments, dated March 2, 2012. The attorney did not
           agree with the finding. The complete text of the written comments, except for 75
           pages of documentation that were not necessary to understand the attorney’s
           comments, along with our evaluation of that response, can be found in appendix B
           of this report. We provided the Director of HUD’s Detroit office of Community
           Planning and Development with a complete copy of the Authority’s written
           comments plus the 75 pages of documentation.




                                            2
                           TABLE OF CONTENTS

Background and Objective                                                           4

Results of Audit
      Finding 1: The Authority Lacked Adequate Controls Over Its Use of Program
                 Funds Under the Act for a Project                                 6

Scope and Methodology                                                             12

Internal Controls                                                                 14

Appendix
   A. Schedule of Questioned Costs                                                16
   B. Auditee Comments and OIG’s Evaluation                                       17
   C. Federal Requirements                                                        25




                                           3
                      BACKGROUND AND OBJECTIVE

The Program. Authorized under Section 2301 of Title III of the Housing and Economic
Recovery Act of 2008, as amended, Congress appropriated $4 billion for the Neighborhood
Stabilization Program to provide grants to every State and certain local communities to purchase
foreclosed-upon or abandoned homes and rehabilitate, resell, or redevelop these homes to
stabilize neighborhoods and stem the decline in value of neighboring homes. The Act states that
amounts appropriated, revenues generated, or amounts otherwise made available to States and
units of general local government under Section 2301 should be treated as though such funds
were Community Development Block Grant funds under Title I of the Housing and Community
Development Act of 1974. The U.S. Department of Housing and Urban Development (HUD)
allocated more than $3.9 billion in Program funds to more than 300 grantees.

The State. The Michigan State Housing Development Authority administers the State of
Michigan’s Program. The Authority was created by the Michigan Legislature in 1966 under the
laws of the State. It is governed by an eight-member board consisting of the State’s treasurer,
the director of the State’s Department of Human Services, and the director of the State’s
Department of Transportation. The board includes five other members appointed to 4-year terms
by the State’s governor and confirmed by the State Senate. The Authority’s mission is to
provide financial and technical assistance through public and private partnerships to create and
preserve decent and affordable housing for low- and moderate-income residents and to engage in
community economic development activities to revitalize urban and rural communities. The
Authority’s records are located at 735 East Michigan Avenue, Lansing, MI, and 3028 West
Grand Boulevard, Detroit, MI.

HUD allocated nearly $98.7 million in Program funds under the Act to the State based upon the
funding formula developed by HUD pursuant to the Act. On March 19, 2009, HUD entered into
a grant agreement with the Authority for the full amount allocated. The Authority reported in
HUD’s Disaster Recovery Grants Reporting system the following obligations for the nearly
$98.7 million in Program funds:

      $42 million to its Rental Development and Homeless Initiatives Division for the purchase
       and rehabilitation of abandoned or foreclosed-upon homes or residential properties to
       sell, rent, or redevelop the homes or properties and the redevelopment of demolished or
       vacant properties;

      More than $29.6 million to its Office of Community Development for (1) establishing
       financing mechanisms for the purchase and redevelopment of foreclosed-upon homes and
       residential properties; (2) the purchase and rehabilitation of abandoned or foreclosed-
       upon homes or residential properties to sell, rent, or redevelop the homes or properties;
       (3) establishing land banks for foreclosed-upon homes or residential properties; (4) the
       demolition of blighted structures; (5) the redevelopment of demolished or vacant
       properties; and (6) subgrantees’ planning and administrative costs;




                                               4
      Nearly $12.6 million to the Michigan Land Bank Fast Track Authority for the demolition
       of blighted structures, redevelopment of demolished or vacant properties, and planning
       and administrative costs;

      Nearly $6.1 million to its Urban Revitalization Division for the demolition of blighted
       structures;

      Nearly $1.8 million to its Homeownership Division for the purchase and rehabilitation of
       abandoned or foreclosed-upon homes or residential properties to sell, rent, or redevelop
       the homes or properties; and

      Nearly $6.6 million for planning and administration costs.

The first citizen’s complaint to our office alleged that the Authority used $3.3 million in Program
funds for the Michigan Land Bank Fast Track Authority’s acquisition of a property located at
1249 Griswold, Detroit, MI, known as the Farwell Building, without an appraisal and without
notifying the Farwell I Corporation, the owner of the property, that the Land Bank was involved
in the acquisition. The Land Bank was not required to obtain an appraisal for the acquisition of
the Farwell Building. However, we did find that the Authority lacked sufficient documentation
to support that its use of $3.3 million in Program funds for the Land Bank’s acquisition of the
Farwell Building was reasonable and that the Land Bank did not notify the Corporation that it
estimated the fair market value of the Farwell Building before the acquisition of the property (see
finding 1 of this audit report).

The second citizen’s complaint to our office alleged that the Authority awarded Program funds
for four developments in which construction had been completed but the developments had not
been closed. We found that Program funds were not awarded for the four developments and that
the citizen’s complaint was not substantiated.

Our objective was to determine whether the State complied with Federal requirements in its use
of Program funds regarding the citizens’ complaints to our office.




                                                5
                               RESULTS OF AUDIT

Finding 1: The Authority Lacked Adequate Controls Over Its Use of
              Program Funds Under the Act for a Project
The Authority lacked sufficient documentation to support that it followed Federal requirements
in its use of $3.3 million in Program funds for a project. The weakness occurred because the
Authority lacked adequate procedures and controls to ensure that it maintained adequate
documentation to support that its use of Program funds for the acquisition of a building was
reasonable and in accordance with Federal requirements. As a result, HUD lacked assurance that
the Authority used $3.3 million in Program funds for eligible project costs.



 The Authority Lacked
 Sufficient Documentation To
 Support That Its Use of $3.3
 Million in Program Funds Was
 Reasonable

              We reviewed one of the Authority’s redevelopment projects administered by the
              Michigan Land Bank Fast Track Authority due to a citizen’s complaint to our
              office. The Authority disbursed $3.3 million in Program funds to the Land Bank
              for the acquisition of the Farwell Building for redevelopment into a mixed use
              multifamily project.

              Contrary to Federal requirements, the Authority lacked sufficient documentation
              to support that the estimated fair market value of the Farwell Building was $3.3
              million before the Michigan Land Bank Fast Track Authority acquired the
              property or that the Authority’s use of $3.3 million in Program funds for the Land
              Bank’s acquisition of the Farwell Building was reasonable.

              Attachment A, section C.1., of Office of Management and Budget Circular A-87
              requires all costs to be necessary, reasonable, and adequately documented.
              Further, HUD’s regulations at 24 CFR (Code of Federal Regulations) 570.606(e)
              state that the acquisition of real property for an assisted activity is subject to
              subpart B of 49 CFR Part 24, which begins at 49 CFR 24.101. Appendix A to the
              U.S. Department of Transportation’s regulations at 49 CFR Part 24 states that for
              programs and projects receiving Federal financial assistance described in 49 CFR
              24.101(b)(2), an agency is to inform the owner(s) in writing of the agency’s
              estimate of the fair market value for the property to be acquired. While section
              24.101(b)(2) does not require an appraisal for these transactions, an agency must
              have some reasonable basis for its determination of the fair market value.




                                               6
Representatives from the City of Detroit Downtown Development Authority,
Lower Woodward Housing Fund, Detroit Investment Fund, and Wayne County
Land Bank formed a working group to facilitate the redevelopment of the Capitol
Park project. The Capitol Park project included the Farwell Building and two
other properties located at 1145 and 1212 Griswold, Detroit, MI. The City of
Detroit Downtown Development Authority hired Exclusive Realty, a third-party
real estate broker, to negotiate the purchase of the Farwell Building on behalf of
the working group to prevent the Farwell I Corporation from discovering the
identity of the prospective buyer and trying to sell the property at an inflated
price. Exclusive Realty negotiated a purchase price of $3.3 million for the
Farwell Building and executed a purchase agreement for the property on behalf of
the City of Detroit Downtown Development Authority on June 30, 2009. The
president of Exclusive Realty said that a fair market analysis of the Farwell
Building was not conducted. The $3.3 million represented the lowest price for
which the Corporation was willing to sell the property.

In July 2009, the City of Detroit Downtown Development Authority approached
the Authority for assistance in acquiring the Farwell Building. On October 16,
2009, the Authority issued a notice of intent to request a release of funds stating
that the Authority intended to award the Michigan Land Bank Fast Track
Authority $3.3 million in Program funds to acquire the Farwell Building. On
November 16, 2009, Exclusive Realty assigned its rights under the purchase
agreement to the Land Bank. On November 19, 2009, the Authority disbursed
$3.3 million to First American Title Insurance Company to finance the Land
Bank’s acquisition of the Farwell Building. On November 20, 2009, the Farwell I
Corporation executed a warranty deed conveying the property to the Land Bank.
According to the property transfer affidavit, the Land Bank acquired the Farwell
Building for $3.3 million. On December 2, 2009, the Authority drew down $3.3
million in Program funds for the Land Bank’s acquisition of the Farwell Building.

However, the Authority could not provide sufficient documentation to support
that the $3.3 million acquisition price of the Farwell Building was reasonable.
Further, the Michigan Land Bank Fast Track Authority did not notify the Farwell
I Corporation of its estimate of the property’s fair market value before its
acquisition of the property.

The Authority provided an interoffice memorandum from the Michigan Land
Bank Fast Track Authority, dated February 28, 2010, stating that the Land Bank
prepared an in-house comparable analysis to support the reasonableness of the
acquisition of the 100,000-square-foot Farwell Building. The Land Bank’s
analysis used comparable sales information from properties sold in 2008 and 2009
compiled by Exclusive Realty from the Assessment Division of the City of
Detroit’s Department of Finance. The analysis in the memorandum contained the
following information regarding the five properties:




                                 7
                                                          Square       Price per
       Property address        Sale date    Sale price    footage     square foot
      220 West Congress     February 2008   $1,500,000       32,000           $47
      1959 East Jefferson   February 2008    1,900,000       90,000            21
      607 Shelby              March 2008     2,600,000       45,000            58
      1145 Griswold        September 2009    1,900,000       80,000            24
      1212 Griswold         December 2009    1,750,000      108,000            16
                     Averages               $1,930,000       71,000           $27

The analysis also included that the price per square foot for the Farwell Building
was $33.

On September 1, 2011, the Authority provided an undated interoffice
memorandum from the Michigan Land Bank Fast Track Authority stating that the
price per square foot for the Farwell Building was within the price per square foot
range of $16 to $58 for the five properties in the Land Bank’s initial in-house
market analysis prepared on or before February 28, 2010. Although a computer
virus destroyed the archived electronic mail correspondence supporting the details
used to prepare the analysis; the Land Bank was able to obtain warranty deeds,
real estate transfer tax valuation affidavits, and other documentation to support the
sales prices in the original analysis. However, the memorandum included a new
in-house comparable analysis that contained different sales prices for the
properties located at 220 West Congress, 1959 East Jefferson, and 607 Shelby.
The analysis in the memorandum contained the following information regarding
the five properties:

                                                          Square       Price per
       Property address        Sale date    Sale price    footage     square foot
      220 West Congress     February 2008   $2,500,000       32,000           $78
      1959 East Jefferson   February 2008    2,000,000       90,000            22
      607 Shelby              March 2008     1,500,000       45,000            33
      1145 Griswold        September 2009    1,900,000       80,000            24
      1212 Griswold         December 2009    1,750,000      108,000            16
                     Averages               $1,930,000       71,000           $27

The memorandum also stated that the three properties with different sales prices
were acquired as part of a pool of five properties purchased for $7.25 million and
that the attached schedule A of the title insurance policies for the three properties
confirmed that the properties were sold for the amounts contained in the new
analysis. The executive director of the Michigan Land Bank Fast Track Authority
stated that when the Land Bank reviewed the new documents, it discovered that
the sales prices for the three properties in the initial analysis were inaccurate and
corrected the sales prices in the new analysis. The executive director also stated
that although the sales prices for three of the properties had changed, the change
was immaterial and the price-per-square-foot range for the five properties
increased to $16 to $78. The increase in the sales prices better supports that the
acquisition price of the Farwell Building was reasonable. However, the Land
Bank included only an unsigned schedule A of the title insurance policies.



                                   8
           The executive director of the Michigan Land Bank Fast Track Authority stated
           that the Land Bank compared the age, size, location, and condition of the different
           properties used in the comparable analyses. The properties used in the analyses
           were all located in the greater central business district and included class B or C
           buildings. However, the Land Bank could not provide documentation to support
           the square footage of the buildings or that the comparable analyses considered the
           age, size, location, and condition of the properties. Further, the chief executive
           officer of Exclusive Realty said that building classifications A, B, and C are
           industry-specific designations used to identify a range of acceptable lease rates for
           commercial properties. The classifications are based on multiple factors
           including the location, size, and condition of a building. Buildings in one
           classification are generally not comparable to buildings in another classification
           due to the different factors considered. The Farwell Building would not be
           considered a class A, B, or C property since the building could not be leased in its
           current condition.

The Authority Lacked
Adequate Procedures and
Controls

           The weakness regarding the lack of sufficient documentation to support its use of
           $3.3 million in Program funds for the acquisition of the Farwell Building occurred
           because the Authority lacked adequate procedures and controls to ensure that it
           used Program funds in accordance with Federal requirements.

           The attorney of the Authority’s Executive Division stated that the $3.3 million
           sales price for the Farwell Building was the result of careful negotiations through
           a real estate broker. The amount was $6.7 million less than the Farwell I
           Corporation’s initial asking price for the Farwell Building. Further, the purchase
           was necessary for the area as a whole, and the sales price was consistent with the
           comparables in the Michigan Land Bank Fast Track Authority’s analysis. In
           addition, the Farwell Building was listed in the National Register of Historic
           Places, was a historically and commercially important keystone building to the
           City of Detroit, was located in an area subject to extensive redevelopment, and
           was considered to be in a prime location for a mix of homes and office and retail
           space.

           The executive director of the Michigan Land Bank Fast Track Authority stated
           that the Land Bank operated with the belief that the Farwell I Corporation
           received a fair price for the Farwell Building without being overpaid. Although
           the Farwell Building was an older building that had been vacant since 1984, it
           contained valuable architectural elements and materials. The rigor of the
           negotiation process and the undisclosed identity of the working group further
           protected the Land Bank against an unduly inflated sales price. In addition, the
           importance of the Farwell Building to the Capitol Park project, the need to protect



                                             9
             the investment already made in the area, and the comparable analysis further
             support that the purchase price was reasonable. Given the historical significance
             of the Farwell Building, exact comparables were not available. The executive
             director also stated that the Land Bank was not fully aware of its responsibilities
             under the Uniform Relocation Assistance and Real Property Acquisition Policies
             Act of 1970 since this was the first multifamily development financing project
             undertaken by the Land Bank. Once the Land Bank became aware of the
             Relocation Act requirement, it obtained an affidavit of voluntary sale from the
             Corporation to rectify its oversight. The Corporation stated in the affidavit that
             the $3.3 million purchase price of the property represented the fair market value.
             However, the affidavit did not include the Land Bank’s estimate of the fair market
             value of the Farwell Building in accordance with the Relocation Act. Further, the
             Authority and the Land Bank could not provide sufficient documentation to
             support that the $3.3 million acquisition price of the property was reasonable.

Conclusion

             The Authority lacked adequate procedures and controls to ensure that it
             maintained sufficient documentation to support that it used Program funds in
             accordance with Federal requirements. As a result, HUD lacked assurance that
             the Authority’s use of $3.3 million in Program funds for the acquisition of the
             Farwell Building was reasonable and met Federal requirements.

Recommendations

             We recommend that the Director of HUD’s Detroit Office of Community
             Planning and Development require the State to

             1A.    Perform a reasonable analysis to determine the fair market value of the
                    Farwell Building before the Michigan Land Bank Fast Track Authority
                    acquired the property. If the State does not perform a reasonable analysis,
                    it should reimburse its Program from non-Federal funds for the $3.3
                    million in Program funds used for the acquisition of the Farwell Building.
                    If the State performs a reasonable analysis and determines that the fair
                    market value of the Farwell Building before the Land Bank acquired the
                    property was less than $3.3 million, it should also provide sufficient
                    documentation to support and justify the Land Bank’s acquisition of the
                    property for $3.3 million or reimburse its Program from non-Federal funds
                    for the portion of the $3.3 million in Program funds in excess of the fair
                    market value of the Farwell Building before the Land Bank acquired the
                    property.




                                             10
1B.   Implement adequate procedures and controls to ensure that it maintains
      sufficient documentation to support that the Authority’s use of Program
      funds is for eligible project costs.




                              11
                        SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

      Applicable laws; the Federal Register, dated October 6, 2008, June 19, 2009, and April 9,
       2010; HUD’s regulations at 24 CFR Parts 85 and 570; the U.S. Department of
       Transportation’s regulations at 49 CFR Part 24; Office of Management and Budget
       Circular A-87; HUD’s policy alert; HUD Handbook 1378, CHG-10; HUD’s Relocation
       and Acquisition Policies, volume 1, number 2; HUD’s Program grant agreement with the
       State; and HUD’s Detroit Office of Community Planning and Development’s monitoring
       reports for the State’s Program and Community Development Block Grant and HOME
       Investment Partnerships programs from 2008 through 2011.

      The State’s 2008 action plan substantial amendment for the Program, consolidated plans
       for 2005 and 2010, annual performance reports for 2009 and 2010, and Program data
       from HUD’s Disaster Recovery Grant Reporting system and the Authority’s On-line
       Project Administration Link system.

      The Authority’s audited financial statements for 2009 and 2010, annual reports for 2008
       through 2010, financial records, policies and procedures, interagency agreement, board
       meeting minutes, organization chart, and budgets.

We interviewed the Authority’s employees, the Michigan Land Bank Fast Track Authority’s and
Exclusive Realty’s personnel, and HUD’s staff.

As previously stated, on March 19, 2009, HUD entered into a grant agreement with the State’s
Authority for nearly $98.7 million in Program funds.

Finding 1
We reviewed one of the Authority’s redevelopment projects administered by the Michigan Land
Bank Fast Track Authority due to a citizen’s complaint to our office to determine whether the
Authority used $3.3 million in Program funds in accordance with Federal requirements.

We did not rely on data maintained in HUD’s Disaster Recovery Grant Reporting system since it
did not contain project-specific data. We also did not rely on data maintained in the Authority’s
On-line Project Administration Link system since we performed a minimal level of testing and
found the data to be unreliable for our purposes.

We performed our onsite audit work from June through November 2011 at the Authority’s office
located at 735 East Michigan Avenue, Lansing, MI. The audit covered the period July 2008
through May 2011 and was expanded as determined necessary.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our finding and conclusions based on our audit


                                               12
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               13
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                     Effectiveness and efficiency of operations - Policies and procedures that
                      management has implemented to reasonably ensure that a program meets
                      its objectives.

                     Reliability of financial reporting - Policies and procedures that
                      management has implemented to reasonably ensure that valid and reliable
                      data are obtained, maintained, and fairly disclosed in reports.

                     Compliance with applicable laws and regulations - Policies and
                      procedures that management has implemented to reasonably ensure that
                      resource use is consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness and efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws or regulations on a
               timely basis.




                                                 14
Significant Deficiency

            Based on our review, we believe that the following item is a significant
            deficiency:

               The Authority lacked adequate procedures and controls to ensure that it
                maintained adequate documentation to support that its use of Program funds
                for the acquisition of a building was reasonable and in accordance with
                Federal requirements.




                                            15
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                            Recommendation
                                number            Unsupported 1/
                                   1A                 $3,300,000
                                  Totals              $3,300,000


1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             16
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1
Comments 1
 and 2

Comment 1



Comment 3




                         17
Ref to OIG Evaluation   Auditee Comments




Comment 3
Comment 1




                         18
Ref to OIG Evaluation   Auditee Comments




Comment 1

Comment 1




                         19
Ref to OIG Evaluation   Auditee Comments




Comments 1
 and 2




Comment 1


Comment 4




                         20
                        OIG’s Evaluation of Auditee Comments

Comment 1   The Michigan Land Bank Fast Track Authority was required to determine the
            estimated fair market value of the Farwell Building and notify the Farwell I
            Corporation of its estimate of the property’s fair market value before its
            acquisition of the property. However, the Land Bank did not do this. Further,
            Exclusive Realty’s negotiated purchase price of $3.3 million for the Farwell
            Building was not an estimate of the fair market value of the building. In addition,
            neither the Land Bank nor the Authority could provide sufficient documentation
            to support that the estimated fair market value of the Farwell Building was $3.3
            million before the Land Bank acquired the property or that the Authority’s use of
            $3.3 million in Program funds for the Land Bank’s acquisition of the Farwell
            Building was reasonable.

            Appendix A to the U.S. Department of Transportation’s regulations at 49 CFR
            Part 24 states that for programs and projects receiving Federal financial assistance
            described in 49 CFR 24.101(b)(2), an agency is to inform the owner(s) in writing
            of the agency’s estimate of the fair market value for the property to be acquired.
            While section 24.101(b)(2) does not require an appraisal for these transactions, an
            agency may decide that an appraisal is necessary to support its determination of
            the fair market value of these properties, and in any event, an agency must have
            some reasonable basis for its determination of the fair market value. After an
            agency has established an amount it believes to be the fair market value of the
            property and has notified the owner of this amount in writing, an agency may
            negotiate freely with the owner to reach agreement.

            Further, paragraph 5-3.E. of HUD Handbook 1378, CHG-10, states that in cases
            of voluntary acquisitions under 49 CFR 24.101(b)(2), agencies must inform the
            property owner in writing of what it believes to be the fair market value of the
            property (see appendix A to 49 CFR Part 24). Although an appraisal is not
            required by regulation in these circumstances, HUD encourages the use of an
            appraisal to establish the agency’s estimate of fair market value, especially for
            high-value or complex property acquisitions. If an appraisal is not prepared, the
            estimate of fair market value must be prepared by a person familiar with real
            estate values. The agency’s files must include an explanation, with reasonable
            evidence, of the basis for the agency’s estimate of fair market value. Paragraph 5-
            3.F. states that in the case of voluntary acquisitions under the Uniform Relocation
            Assistance and Real Property Acquisition Policies Act of 1970, there is nothing in
            the regulations to preclude negotiations resulting in agreements below, at, or
            above the agency’s estimate of fair market value after the property owner has
            been so informed and all applicable requirements have been satisfied (see
            appendix A to 49 CFR Part 24 and volume 1, number 2, of HUD’s Relocation and
            Acquisition Policies). Recipients should consider alternative properties available
            for purchase before entering into any agreement for property which exceeds the
            original estimate of fair market value. Subject to applicable program
            requirements, alternative properties must be pursued when proposed agreements



                                             21
which exceed the recipient’s original estimate cannot be legitimately supported
and justified. Documentation and support for all agreements below, at, or above
the original estimate must be at an appropriate level to satisfy a HUD technical
review. All such agreements are subject to HUD review and corrective action
when deemed necessary.

Volume 1, number 2, of HUD’s Relocation and Acquisition Policies states that
when negotiations exceed the original estimate of fair market value, and Federal
funds pay for or participate in acquisition costs, an acquiring agency must
document and maintain written justification for the higher amount. Such
justification must state what available information supports exceeding the original
estimate of fair market value. The level of documentation should fit the situation.
When proposed agreements exceeding the agency’s original estimate of fair
market value cannot be legitimately supported and justified, Federal funds may
not be used in the purchase.

Attachment A, section C.1., of Office of Management and Budget Circular A-87,
revised May 10, 2004, requires all costs to be necessary, reasonable, and
adequately documented. Section C.2. states that a cost is reasonable if, in its
nature or amount, it does not exceed that which would be incurred by a prudent
person under the circumstances prevailing at the time the decision was made to
incur the cost. In determining reasonableness of a given cost, consideration must
be given to (1) the restraints or requirements imposed by such factors as sound
business practices and Federal regulations; (2) market prices for comparable
goods or services; and (3) whether the individuals concerned acted with prudence
in the circumstances, considering their responsibilities to the organization; its
members, employees, and clients; the public at large; and the Federal
Government.

We revised the report to state the following:

   Contrary to Federal requirements, the Authority lacked sufficient
    documentation to support that the estimated fair market value of the Farwell
    Building was $3.3 million before the Michigan Land Bank Fast Track
    Authority acquired the property or that the Authority’s use of $3.3 million in
    Program funds for the Land Bank’s acquisition of the Farwell Building was
    reasonable.

We also revised recommendation 1A to state the following:

   Perform a reasonable analysis to determine the fair market value of the
    Farwell Building before the Michigan Land Bank Fast Track Authority
    acquired the property. If the State does not perform a reasonable analysis, it
    should reimburse its Program from non-Federal funds for the $3.3 million in
    Program funds used for the acquisition of the Farwell Building. If the State
    performs a reasonable analysis and determines that the fair market value of the


                                 22
                Farwell Building before the Land Bank acquired the property was less than
                $3.3 million, it should also provide sufficient documentation to support and
                justify the Land Bank’s acquisition of the property for $3.3 million or
                reimburse its Program from non-Federal funds for the portion of the $3.3
                million in Program funds in excess of the fair market value of the Farwell
                Building before the Land Bank acquired the property.

Comment 2   The Authority did not provide documentation to support that the previous fair
            market value of the Farwell Building was $10 million and that the $3.3 million
            sales price for the property was $6.7 million less than the previous fair market
            value of the property.

Comment 3   We revised the report to state the following:

               Representatives from the City of Detroit Downtown Development Authority,
                Lower Woodward Housing Fund, Detroit Investment Fund, and Wayne
                County Land Bank formed a working group to facilitate the redevelopment of
                the Capitol Park project. The Capitol Park project included the Farwell
                Building and two other properties located at 1145 and 1212 Griswold, Detroit,
                MI. The City of Detroit Downtown Development Authority hired Exclusive
                Realty, a third-party real estate broker, to negotiate the purchase of the
                Farwell Building on behalf of the working group to prevent the Farwell I
                Corporation from discovering the identity of the prospective buyer and trying
                to sell the property at an inflated price. Exclusive Realty negotiated a
                purchase price of $3.3 million for the Farwell Building and executed a
                purchase agreement for the property on behalf of the City of Detroit
                Downtown Development Authority on June 30, 2009. The president of
                Exclusive Realty said that a fair market analysis of the Farwell Building was
                not conducted. The $3.3 million represented the lowest price for which the
                Corporation was willing to sell the property.

               In July 2009, the City of Detroit Downtown Development Authority
                approached the Authority for assistance in acquiring the Farwell Building. On
                October 16, 2009, the Authority issued a notice of intent to request a release
                of funds stating that the Authority intended to award the Michigan Land Bank
                Fast Track Authority $3.3 million in Program funds to acquire the Farwell
                Building. On November 16, 2009, Exclusive Realty assigned its rights under
                the purchase agreement to the Land Bank. On November 19, 2009, the
                Authority disbursed $3.3 million to First American Title Insurance Company
                to finance the Land Bank’s acquisition of the Farwell Building. On
                November 20, 2009, the Farwell I Corporation executed a warranty deed
                conveying the property to the Land Bank. According to the property transfer
                affidavit, the Land Bank acquired the Farwell Building for $3.3 million. On
                December 2, 2009, the Authority drew down $3.3 million in Program funds
                for the Land Bank’s acquisition of the Farwell Building.




                                             23
Comment 4   The Authority’s corrective actions should improve the State’s procedures and
            controls to ensure that the Authority’s use of Program funds is for eligible
            project costs.




                                        24
Appendix C

                           FEDERAL REQUIREMENTS

HUD’s grant agreement with the Authority for the Program under the Act, dated March 19,
2009, states that the following are part of the grant agreement: the Federal Register, dated
October 6, 2008; the Housing and Economic Recovery Act of 2008; the State’s submission for
Program assistance; HUD’s regulations at 24 CFR Part 570; and the funding approval.

The Federal Register, dated October 6, 2008, states that except as described in the Federal
Register, statutory and regulatory provisions governing the Community Development Block
Grant program, including the provisions in subparts A, C, D, I, J, K, and O of 24 CFR Part 570,
as appropriate, should apply to the use of Program funds. The Federal Register also states that
HUD does not have the authority to provide alternative requirements for the Uniform Relocation
Assistance and Real Property Acquisition Policies Act of 1970. Unless the Federal Register
describes how the Housing and Economic Recovery Act of 2008 supersedes the statutes in the
Relocation Act, these statutes in the Relocation Act will apply as in the Block Grant program.

HUD’s regulations at 24 CFR 85.22(b) state that allowable costs for State, local, or Indian tribal
governments will be determined in accordance with cost principles contained in Office of
Management and Budget Circular A-87.

HUD’s regulations at 24 CFR 570.501(b) state that a recipient is responsible for ensuring that
Community Development Block Grant funds are used in accordance with all program
requirements. The use of designated public agencies, subrecipients, or contractors does not
relieve the recipient of this responsibility. The recipient is also responsible for determining the
adequacy of performance under subrecipient agreements and procurement contracts and for
taking appropriate action when performance problems arise.

HUD’s regulations at 24 CFR 570.502(a) state that recipients and subrecipients that are
governmental entities, including public agencies, must comply with Office of Management and
Budget Circular A-87. Section 570.502(a)(6) states that recipients and subrecipients that are
governmental entities must comply with 24 CFR 85.22.

HUD’s regulations at 24 CFR 570.506 state that recipients must establish and maintain sufficient
records to enable HUD to determine whether the recipients have met the requirements of 24 CFR
Part 570. Section 570.506(a) states that recipients need to maintain records providing a full
description of each activity assisted with Community Development Block Grant funds; the
amount of Block Grant funds budgeted, obligated, and expended for the activities; and the
provisions under which the activities are eligible. Section 570.506(h) states that recipients need
to maintain financial records in accordance with the applicable requirements in section 570.502.
Recipients must maintain evidence to support how Block Grant funds are expended. The
documentation must include invoices, schedules containing comparisons of budgeted amounts
and actual expenditures, construction progress schedules signed by appropriate parties, and other
documentation appropriate to the nature of the activity as applicable.


                                                 25
HUD’s regulations at 24 CFR 570.606(b) state that 49 CFR Part 24 contains the government-
wide regulations implementing the Uniform Relocation Assistance and Real Property
Acquisition Policies Act of 1970. Section 570.606(e) states that the acquisition of real property
for an assisted activity is subject to subpart B of 49 CFR Part 24. Section 570.606(g)(1) states
that a grantee is responsible for ensuring compliance with the requirements of 24 CFR 570.606,
notwithstanding any third party’s contractual obligation to the grantee to comply with the
provisions of 24 CFR 570.606. For purposes of the State Community Development Block Grant
program, the State should require recipients to certify that they will comply with the
requirements of this section.

The U.S. Department of Transportation’s regulations at 49 CFR 24.101(b)(2) state that the
requirements of subpart B do not apply to acquisitions for programs or projects undertaken by an
agency or person that receives Federal financial assistance but does not have authority to acquire
property by eminent domain, provided that such agency or person should, before making an offer
for the property, clearly advise the owner that the agency or person is unable to acquire the
property if negotiations fail to result in an agreement and inform the owner in writing of what the
agency or person believes to be the market value of the property. Appendix A to 49 CFR Part 24
states that for programs and projects receiving Federal financial assistance described in 49 CFR
24.101(b)(2), an agency is to inform the owner(s) in writing of the agency’s estimate of the fair
market value for the property to be acquired. While section 24.101(b)(2) does not require an
appraisal for these transactions, an agency may decide that an appraisal is necessary to support
its determination of the fair market value of these properties, and in any event, an agency must
have some reasonable basis for its determination of the fair market value. After an agency has
established an amount it believes to be the fair market value of the property and has notified the
owner of this amount in writing, an agency may negotiate freely with the owner to reach
agreement.

Attachment A, section C.1., of Office of Management and Budget Circular A-87, revised May
10, 2004, requires all costs to be necessary, reasonable, and adequately documented. Section
C.2. states that a cost is reasonable if, in its nature or amount, it does not exceed that which
would be incurred by a prudent person under the circumstances prevailing at the time the
decision was made to incur the cost. In determining reasonableness of a given cost,
consideration must be given to (1) the restraints or requirements imposed by such factors as
sound business practices and Federal regulations; (2) market prices for comparable goods or
services; and (3) whether the individuals concerned acted with prudence in the circumstances,
considering their responsibilities to the organization; its members, employees, and clients; the
public at large; and the Federal Government.

Paragraph 5-3.E. of HUD Handbook 1378, CHG-10, states that in cases of voluntary acquisitions
under 49 CFR 24.101(b)(2), agencies must inform the property owner in writing of what it
believes to be the fair market value of the property (see appendix A to 49 CFR Part 24).
Although an appraisal is not required by regulation in these circumstances, HUD encourages the
use of an appraisal to establish the agency’s estimate of fair market value, especially for high-
value or complex property acquisitions. If an appraisal is not prepared, the estimate of fair
market value must be prepared by a person familiar with real estate values. The agency’s files
must include an explanation, with reasonable evidence, of the basis for the agency’s estimate of



                                                26
fair market value. Paragraph 5-3.F. states that in the case of voluntary acquisitions under the
Uniform Relocation Assistance and Real Property Acquisition Policies Act of 1970, there is
nothing in the regulations to preclude negotiations resulting in agreements below, at, or above
the agency’s estimate of fair market value after the property owner has been so informed and all
applicable requirements have been satisfied (see appendix A to 49 CFR Part 24 and volume 1,
number 2, of HUD’s Relocation and Acquisition Policies). Recipients should consider
alternative properties available for purchase before entering into any agreement for property
which exceeds the original estimate of fair market value. Subject to applicable program
requirements, alternative properties must be pursued when proposed agreements which exceed
the recipient’s original estimate cannot be legitimately supported and justified. Documentation
and support for all agreements below, at, or above the original estimate must be at an appropriate
level to satisfy a HUD technical review. All such agreements are subject to HUD review and
corrective action when deemed necessary (see paragraph 5-4.H.). Paragraph 5-4.H. states that
acquiring agencies must also comply with applicable HUD program regulations and policies in
negotiating agreements for a property which exceeds the agency’s fair market value
determination. If there is a conflict, HUD program regulations and policies prevail. If HUD
grant funds are used to acquire properties, acquiring agencies must also be guided by the
applicable Office of Management and Budget circulars when considering the original estimate of
fair market value and any agreement which exceeds that amount. A fundamental requirement in
the Office of Management and Budget circulars is that costs charged to a Federal grant be
reasonable. In particular, Office of Management and Budget Circular A-87 states that costs must
be necessary and reasonable for the proper and efficient performance and administration of
Federal awards.

Volume 1, number 2, of HUD’s Relocation and Acquisition Policies states that when acquiring
property under 49 CFR 24.101(b)(1) through (5) of the Relocation Act, an acquiring agency must
have a reasonable basis for its determination of the property’s fair market value. After an
acquiring agency has established an amount it believes to be the fair market value of the property
and has notified the owner of this amount in writing, an acquiring agency may negotiate with the
owner to reach agreement on a final purchase price. Negotiations may result in agreement
below, at, or above, the agency’s original estimate of fair market value. When negotiations
exceed the original estimate of fair market value and Federal funds pay for or participate in
acquisition costs, an acquiring agency must document and maintain written justification for the
higher amount. Such justification must state what available information supports exceeding the
original estimate of fair market value. The level of documentation should fit the situation. When
proposed agreements exceeding the agency’s original estimate of fair market value cannot be
legitimately supported and justified, Federal funds may not be used in the purchase.




                                               27
